TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                           Office of Inspections and Evaluations




                   Oversight of the Public Transportation
                 Subsidy Program Can Be Further Improved



                                          May 22, 2012

                          Reference Number: 2012-IE-R004




   This report has cleared the Treasury Inspector General for Tax Administration (TIGTA) disclosure
   review process and information determined to be restricted from public release has been redacted
                                          from this document.




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                     DEPARTMENT OF THE TREASURY
                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 22, 2012


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                        R. David Holmgren
                              Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                     Final Inspection Report – Oversight of the Public
                              Transportation Subsidy Program Can Be Further
                              Improved (#IE-10-019)

 This report presents the results of a follow-up review1 to determine whether the Internal Revenue
 Service (IRS) implemented corrective actions and established necessary controls to ensure that
 the Public Transportation Subsidy Program (PTSP) is properly monitored and effectively
 administered. The IRS’s PTSP is nationwide and encompasses approximately 29,000 employees
 located in more than 250 cities in the United States and certain offices in other territories and
 countries. For Fiscal Year (FY) 2011, the IRS’s contract with the Department of Transportation
 (DOT) for distributing the PTSP funding was an estimated $30 million. The Travel Services
 Branch (TSB) within the Agency-Wide Shared Services (AWSS) is responsible for
 administering the PTSP within the IRS.

 Synopsis
 In March 2006, TIGTA reported that the IRS was in basic compliance with the law2 and had
 established procedures to administer the PTSP. However, to enhance AWSS processes and
 controls, TIGTA recommended that AWSS:
       Establish an annual recertification process, including removing non-recertified
        employees, for all employees participating in the PTSP;




 1
   Treasury Inspector General for Tax Administration (TIGTA), Ref. No. 2006-10-062, The Administration of the
 Public Transportation Subsidy Program Can Be Improved, (March 23, 2006).
 2
   5 United States Code Section 7905.
                           Oversight of the Public Transportation Subsidy Program
                                          Can Be Further Improved




      Require employees to certify their actual commuting costs when picking up their transit
       subsidies;
      Develop a better process to ensure that separated employees are removed promptly from
       the DOT database; and
      Periodically match a valid statistical sample of IRS subsidy recipients to DOT invoices to
       ensure that those invoices are limited to employees.
IRS management agreed with these recommendations.
AWSS management has implemented only portions of the corrective actions proposed to address
each of the 2006 recommendations. They initiated a computerized application for the initial
program enrollment, management approval, and subsequent subsidy change requests. Some
employees are completing annual PTSP recertifications, but this requirement has not yet been
implemented throughout the IRS. When picking up the PTSP subsidy, participants certify, by
their signature, their actual commuting expenses for the previous period. TSB staff members
access multiple internal data sources to enhance the identification and removal of separated
employees from the PTSP database. Nevertheless, 17 percent3 of the separated employees we
reviewed remained on the DOT PTSP database for 90 days or longer after they departed from the
IRS. Also, TSB staff members select a monthly statistical sample of participants for review to
determine if only IRS employees receive the benefit and to identify any potential abuse within
the PTSP. However, the reviews could be more accurate if additional data sources were used.
Further, records of the cases that TSB staff members may have referred to TIGTA’s Office of
Investigations were not always maintained, and the results of the PTSP reviews are not shared
with either the affected employees or their managers.

Recommendations
We recommend that the Chief, AWSS, ensure that the IRS completes the rollout of the
recertification process IRS-wide. We also recommend that the Chief ensure that the Internal
Revenue Manual4 (IRM) is updated to include the specific requirements for recertification,
including removal of noncompliant employees, and that the automated system for management
approval be changed to show the subsidy amount being requested. Further, we recommend that
the Chief increase coordination with the DOT to identify an effective process for removing
separated employees from the DOT database and reducing the potential loss of the IRS’s PTSP
funds. In addition, we recommend that the Chief add the following sources of data to the current
PTSP review processes to improve the accuracy of the review results:



3
  Of the 557 employees reviewed, 93 remained in the database for 90 days or longer past their separation dates.
4
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                                      2
                     Oversight of the Public Transportation Subsidy Program
                                    Can Be Further Improved




     Participants’ subsidy amounts approved by management;
     Participants’ actual daily commuting costs;
     Participants’ telecommuting days; and
     Participants’ adjustments of subsidy for subsequent periods.
We also recommend that the Chief publish the necessary IRM procedures to ensure that
managers and participants are notified when a review identifies questions concerning the
accuracy of the transportation subsidy. Further, the Chief should ensure that the PTSP operating
procedures are developed to include requirements for documenting all referrals made to any
party external to the TSB staff.

Response
The Chief, AWSS, agreed with the recommendations in the report, and has initiated, or plans to
initiate, corrective actions. Implementation of these corrective actions will enhance the
accountability of the PTSP by improving internal controls and communications. Many of these
corrective actions will require negotiations with the National Treasury Employees Union before
they are implemented. IRS management’s complete response to the memorandum is included in
Appendix IV.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                3
                             Oversight of the Public Transportation Subsidy Program
                                            Can Be Further Improved




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Program Benefits Have Been Abused by Some Participants ....................... Page 3
                    Recommendation 1:.......................................................... Page 4

          The Annual Recertification Process Has Not Been Implemented
          IRS-wide ....................................................................................................... Page 4
                    Recommendations 2 and 3: ................................................ Page 6

                    Recommendation 4:.......................................................... Page 7

          Separated Employees Were Not Promptly Removed From the Program ..... Page 7
                    Recommendation 5:.......................................................... Page 8

          Reviews of Claims Could Be More Accurate ............................................... Page 8
                    Recommendation 6:........................................................ Page 10

          Results of Claims Reviews Are Not Shared With the Participants
          and Their Managers ...................................................................................... Page 11
                    Recommendation 7:........................................................ Page 11

                    Recommendation 8:........................................................ Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Management’s Response to the Draft Report ...................... Page 16
        Oversight of the Public Transportation Subsidy Program
                       Can Be Further Improved




                    Abbreviations

AWSS          Agency-Wide Shared Services
DOT           Department of Transportation
FY            Fiscal Year
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
NTEU          National Treasury Employees Union
PTSP          Public Transportation Subsidy Program
TIGTA         Treasury Inspector General for Tax Administration
TSB           Travel Services Branch
                        Oversight of the Public Transportation Subsidy Program
                                       Can Be Further Improved




                                            Background

In 1993, Congress authorized Federal agencies to pay all or a portion
of their employees’ public transportation costs to encourage the use
of mass public transportation.1 The Internal Revenue Service (IRS)                    PTSP encompasses almost
first implemented the Public Transportation Subsidy Program                          29,000 employees located in
(PTSP) in Calendar Year 2000 to encourage employees to use public                      more than 250 cities and
transportation when commuting to and from work.2 The purpose of                       costs about $30 million for
the program is to reduce traffic congestion, improve air quality, and                      Fiscal Year 2011.
conserve energy by reducing the number of vehicles on the road.
To be eligible to participate in the PTSP, an employee must prepare
an automated application certifying that he or she:
       uses public transportation to commute to and from the office;
       spends a specific amount for that commute; and
       has completed, or will complete within 30 days of the application, the required PTSP
        training course in the Enterprise Learning Management System.3
The applications are electronically forwarded to the employee’s manager for approval or
disapproval. Once approved, the applications are transmitted to the PTSP database. The PTSP
database exports daily the new applications to the Department of Transportation (DOT) for
processing. There are approximately 29,0004 active IRS participants in the PTSP located in
approximately 250 cities throughout the United States and certain other countries and territories.
From February 17, 2009, until December 31, 2011, the maximum amount of transportation
subsidy was $230 per month. The annual budget for the PTSP for Fiscal Year (FY) 20115 was
an estimated $30 million. As of January 1, 2012, the transportation subsidy was reduced to a
maximum of $125 per month regardless of the employee’s commuting costs.
Within the Agency-Wide Shared Services (AWSS), the Employee Support Services, Travel
Services Branch (TSB) provides oversight for the PTSP. The TSB is responsible for


1
  Federal Employees Clean Air Incentives Act, Pub. L. No. 103-172, 107 Stat. 1995 (1993) (codified as amended at
5 United States Code Section 7905).
2
  Federal Workforce Transportation, Exec. Order No. 13,150, 65 Fed. Reg. 24,613 (April 26, 2000); Public
Transportation Program, Treasury Directive 74-10 (November 3, 2000).
3
  The required course is the PTSP Awareness Briefing, Enterprise Learning Management System Item 19239.
4
  Active participants in the program vary in number from day to day, as new enrollees are added and some withdraw
from the program. For the nine months ending September 2011, there was an average of 28,896 IRS participants.
5
  The Federal Government’s Fiscal Year begins on October 1 and ends on September 30.
                                                                                                          Page 1
                         Oversight of the Public Transportation Subsidy Program
                                        Can Be Further Improved




administering the DOT contract, performing subsidy reviews, providing technical advice and
support, performing program reviews, and ensuring that the DOT removes separated employees
from the PTSP.6
In March 2006, the Treasury Inspector General for Tax Administration (TIGTA) reported7 that
the IRS was in basic compliance with the law,8 and had established procedures to administer the
PTSP. However, to enhance the AWSS processes and controls, TIGTA recommended that the
AWSS:
      Establish an annual recertification process for all employees participating in the PTSP;
        Require employees to certify their actual commuting costs when picking up their transit
         subsidies;
        Develop a better process to ensure that separated employees are removed promptly from
         the DOT database; and
        Periodically match a valid statistical sample of IRS subsidy recipients to the DOT
         invoices to ensure that those invoices are limited to IRS employees.
AWSS management agreed to implement these recommendations.
This inspection was performed in the Employee Support Services office located in
Washington, D.C., and the TSB offices located in Oklahoma City, OK; Detroit, MI; and
Houston, TX, during the period of May 2011 through November 2011. We conducted this
inspection in accordance with the Council of the Inspectors General for Integrity and Efficiency
Quality Standards for Inspections. Detailed information on our objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
  These responsibilities are described in Internal Revenue Manual (IRM) 1.32.15.2.1, Responsibilities
(April 25, 2011). The IRM is the IRS’s primary official source of instructions to staff relating to the administration
and operations of the IRS. It contains the directions employees need to carry out their operational responsibilities.
7
  TIGTA, Ref. No. 2006-10-062, The Administration of the Public Transportation Subsidy Program Can Be
Improved, (March 23, 2006).
8
  5 United States Code Section 7905.
                                                                                                                Page 2
                        Oversight of the Public Transportation Subsidy Program
                                       Can Be Further Improved




                                      Results of Review

Our inspection showed that AWSS management has not fully implemented the processes and
controls that were recommended in the 2006 report. The annual recertification process has not
been implemented IRS-wide. Further, our review of 557 employees who separated from the IRS
between February 1, 2011 and May 31, 2011, showed that 17 percent9 of those separated
employees remained on the DOT subsidy database 90 days or longer after their separation date.
AWSS has made progress in selecting a statistical sample and performing reviews of the
accuracy of the PTSP participants’ subsidy claims. However, their current review methodology
for performing the reviews could be made more accurate by adding data sources, and more
effective by communicating the review results to the responsible IRS managers and affected
employees.
AWSS management has implemented elements of each of the 2006 report recommendations.
They initiated a computerized application for the initial program enrollment, management
approval, and subsequent subsidy-change requests. Annual recertifications are required for those
employees who are in business units10 that have received the required PTSP recertification
presentation. The computerized application requires employees to attest that they understand the
program and have taken the required PTSP training or will take the training within 30 days of
completing the application. When picking up the PTSP subsidy, participants certify by their
signature the actual commuting expenses for the previous period. The TSB staff accesses
multiple internal data sources to enhance the identification and removal of separated employees
from the PTSP database. Further, the staff selects a monthly statistical sample of participants for
review to identify any potential abuse of the PTSP. This sample is also used to identify
separated or other non-IRS employees who might attempt to collect the PTSP subsidy.
Program Benefits Have Been Abused by Some Participants
Program participants are informed about the seriousness of making false statements and abusing
subsidy benefits when they enroll in the program, and when they recertify or make changes to
their participation. The participant completes either an electronic online enrollment form or a
manual enrollment form if they do not have access to a computer. These forms contain a
statement that references 18 United States Code Section 1001, which states that making a false,
fictitious, or fraudulent certification could result in criminal prosecution, recoveries of up to
$10,000 per violation, and/or agency disciplinary actions, up to and including dismissal.


9
 Of the 557 employees reviewed, 93 remained in the database for 90 days or longer past their separation dates.
10
  All IRS employees are eligible to participate in the PTSP program, whether or not the business unit has had the
necessary recertification process implemented.
                                                                                                             Page 3
                     Oversight of the Public Transportation Subsidy Program
                                    Can Be Further Improved




Additionally, when the PTSP subsidy benefit is abused, the IRS is at risk of losing funds that are
intended for qualifying commuting expenses.
During the period FY 2009 through FY 2011, TIGTA’s Office of Investigations closed
34 investigations of PTSP-related referrals received from all sources. These referrals contained
allegations that some individuals received subsidies while driving their privately owned vehicles
to commute to their offices; that individuals erroneously collected subsidies for periods when
they were on leave, travel or furlough; and that individuals used the subsidy for personal use
other than commuting to their offices. The referrals were classified as allegations of misconduct
including theft, embezzlement, and false statements. The outcome of these investigations
included employees being separated from the IRS, suspended, admonished, or reprimanded.
TSB management informed us that during the same period (FY 2009 through FY 2011), they
made 144 PTSP referrals to the Office of Investigations. However, written procedures for
making and tracking referrals to the Office of Investigations or to other IRS officials have not
been established. As a result, we were not able to verify the number referred, or trace them
through the Office of Investigations referral process.
Recommendation

Recommendation 1: We recommend that the Chief, AWSS, ensure that TSB staff develops
written procedures for controlling and tracking referrals to the Office of Investigations and to
other IRS officials.
       Management’s Response: IRS management agrees with this recommendation. The
       current Standard Operating Procedure will be enhanced to ensure that, in the future,
       information on referrals can be readily obtained. The manager will hold training with
       immediate staff to explain updated requirements and to ensure that the staff understands
       how referrals will be controlled.
The Annual Recertification Process Has Not Been Implemented
IRS-wide
In the 2006 report, TIGTA recommended, in part, that the IRS implement an annual
recertification process, including managerial approval, for all employees participating in the
PTSP. The IRS responded in writing that procedures were being finalized for the recertification
process and that noncertified employees would be removed from the DOT database.
The IRS Human Capital Office issued a Letter of Understanding to the National Treasury
Employees Union (NTEU) on May 23, 2008, covering the implementation of enhancements to
the PTSP, including the annual recertification process. The letter provided that formal meetings
would be held with impacted employees to provide an overview of the changes to the PTSP. An



                                                                                             Page 4
                         Oversight of the Public Transportation Subsidy Program
                                        Can Be Further Improved




analysis of the PTSP database for FY 2011 showed that 77 percent11 of participants had not been
properly briefed about this requirement. As a result, annual recertification was not required of
those participants. Figure 1 shows a summary of the total participants in IRS business units who
have not recertified.
             Figure 1: Summary of Total Participants in IRS Business Units
                             Who Have Not Recertified
                                                    Total Number of
                                                   PTSP Participants         Percentage of Total
                   Recertification Status           in Business Unit          PTSP Participants
               Recertification Process Not
               Rolled Out in Business Unit                19,692                      77%
               Recertification Process
               Rolled Out in Business Unit                 5,966                      23%
                                                                 12
               Total                                     25,658                       100%
                Source: IRS PTSP Database as of October 1, 2011. 

Additionally, we reviewed a TSB Program Analyst’s spreadsheet, dated July 2011, that
contained the PTSP subsidy review results for 105 participants. This spreadsheet showed that
82 participants (78 percent) had not taken either the initial certification13 or the recertification14
training course.
For the business units and other functions that have held the required PTSP briefing, TSB staff
sends reminders to PTSP participants who have not recertified, informing them that they are
required to recertify and to take the PTSP awareness refresher course. Reminder notices
continue until at least 90 percent of the business unit’s PTSP participants have recertified and
taken the refresher course.
TSB management stated that in 2006 and 2007, the recertification process was being developed
as they reported in their response to the 2006 report. Additionally, IRM changes had to be
negotiated with the NTEU and the Letter of Understanding had to be drafted. However,
management stated that the recertification process was further delayed because of the mandated




11
   Out of a total of 25,658 participants, 19,692 have not yet received the required recertification briefing.
12
   This number represents all active PTSP participants who have submitted an online PTSP application during
FY 2011, and does not include all participants in the PTSP database. Several variables can impact the number of
participants in any given month. For example, seasonal staff using the subsidy will appear in the database report in
one month, but will not appear the following month when such staff is not working.
13
   PTSP Awareness Briefing, Enterprise Learning Management System Item 19239.
14
   PTSP Annual Awareness Briefing, Enterprise Learning Management System Item 30929.
                                                                                                              Page 5
                         Oversight of the Public Transportation Subsidy Program
                                        Can Be Further Improved




implementation of GovTrip.15 In FY 2010, the TSB staff was relieved of GovTrip duties and
resumed working on the PTSP.
We did not identify any instances where a participant was removed from the program for not
recertifying or taking the required recertification course. The current IRM, which includes the
use of reminders to participants that their failure to comply with these requirements may result in
removal or suspension of the participant from the PTSP appears to be insufficient to ensure
participant compliance. The IRM16 does not include specific participant responsibility for annual
recertification and for taking the recertification refresher course.
While the IRM requires managers to approve subsidy amounts for new or recertifying
participants, the online form that managers view does not show the subsidy amounts that
participants request. Managers are forced to make uninformed decisions that the requested
amounts are correct, or contact participants to obtain the amounts before approving the
employees’ participation in the program. The risk for improper use of the PTSP funds increases
when participants do not periodically recertify, and when managers do not receive the necessary
information to make an informed decision to determine if the subsidy amount requested is
appropriate.
Recommendations
Recommendation 2: We recommend that the Chief, AWSS, ensure that TSB staff completes
the rollout of the recertification process IRS-wide.
         Management’s Response: IRS management agrees with this recommendation. The
         staff is currently reviewing and revising enrollment and recertification procedures.
         Changes to the current enrollment and recertification processes will require negotiations
         with the NTEU.
Recommendation 3: We recommend that the Chief, AWSS, ensure that the IRM is updated
to include the specific requirements for recertification and the PTSP refresher course, including
the possibility of removing a participant from the subsidy program for noncompliance.
         Management’s Response: IRS management agrees with this recommendation.
         PTSP staff is working with Labor Relations to update Section 1.32.15 of the IRM to
         include the specific requirements for recertification and training upon enrollment in the
         program, in addition to including the possibility of removing the participant from the
         subsidy program for noncompliance. Implementation of the changes related to
         recertification and the PTSP refresher training will require negotiations with the NTEU.


15
  An automated system for obligating and reimbursing employees’ travel vouchers.
16
   IRM 1.32.15.10, Annual Recertification, refers to the recertification rollout by business unit and to the annual
refresher training, but does not contain requirements for participants to make annual recertifications and take the
refresher course (April 15, 2011).
                                                                                                                Page 6
                    Oversight of the Public Transportation Subsidy Program
                                   Can Be Further Improved




Recommendation 4: We recommend that the Chief, AWSS, ensure that the automated
approval system is changed to ensure that the subsidy amounts requested by participants are
shown on the form that is transmitted to management for approval.
       Management’s Response: The electronic forms are currently being revised to
       include a block for participants to input the requested subsidy amount and a block for
       managerial approval. Forms revisions will require negotiations with the NTEU.

Separated Employees Were Not Promptly Removed From the Program
TSB continues to have a program weakness in not timely removing separated employees from
the DOT database. In 2006, TIGTA reported that 11 percent of the test population had not been
removed from the DOT participant database. This inspection identified that 93 of 557
participants (17 percent), who had separated from the IRS between February 1, 2011 and
May 31, 2011 remained on the DOT database for more than 90 days after their separation. We
were unable to determine the amount of unused subsidy these separated employees may not have
returned or any additional subsidy they may have received because they were not removed from
the program timely. However, allowing separated employees to remain in the DOT database
increases the risk of fraudulent PTSP subsidy claims. Figure 2 shows the results of our analysis
of separated employees.
                 Figure 2: PTSP Participants Separated from the IRS
                     between February 1, 2011 and May 31, 2011
                                                          Persons Who Were
                                                          Still in Database 90
                                       Number of                days After
                                       Separations             Separation
                 February 2011               39                    21
                  March 2011                130                    12
                  April 2011                207                    41
                   May 2011                 181                    19
                     Total                  557                    93
                Source: Analysis of IRS PTSP Database.

TSB management acknowledges that delays in removing separated participants from the DOT
database have been a problem. TSB has been coordinating with the DOT in an attempt to
resolve this issue. An example of this coordination is that the FY 2012 DOT subsidy contract
stipulates that DOT must remove separated participants within five days of notification by TSB.
Twice a month, TSB reports the identities of separated employees to DOT so that they can be
                                                                                           Page 7
                           Oversight of the Public Transportation Subsidy Program
                                          Can Be Further Improved




removed from the PTSP database. Additionally, TSB follows up monthly to determine if the
separated employees have been successfully removed from the DOT database.
Notwithstanding those efforts, the delays continue and can result in the permanent loss of the
IRS’s PTSP funds. This loss occurs because DOT does not credit the IRS account if unused fare
media are received from separated employees more than 30 days after the end of the period for
which the subsidy was intended.
Recommendation

Recommendation 5: We recommend that the Chief, AWSS, increase coordination with the
DOT to identify effective processes and procedures that will improve the removal of separated
employees from the DOT subsidy database and reduce the potential loss of PTSP funds to the
IRS.
           Management’s Response: IRS management agrees with this recommendation.
           PTSP staff has revised their follow-up procedures by completing bi-monthly queries to
           ensure timely withdrawals from the DOT database. They are conducting weekly
           meetings with DOT in an addition to completing these reports. As a result of their
           efforts, the rate of withdrawals from the DOT database has decreased from 90 days to
           seven days.
Reviews of Claims Could Be More Accurate
In response to the 2006 report, TSB staff started selecting a monthly statistical sample and
reviewing the PTSP recipients’ subsidy claims. These reviews consist of analyzing the subsidy
amounts the participants received, payroll, and travel records. During FY 2010, TSB selected
2,19817 participants for review. These reviews showed that 88 percent (1,929) of participants had
over-claimed subsidies totaling approximately $88,000.
This large error rate could be indicative of errors created by the PTSP’s review methodology,
significant intentional errors made by the participants, or errors caused by the participants’ lack
of understanding of how to be compliant with subsidy requirements. All participants attest that
they understand the program requirements and have taken the mandatory training or will take the
mandatory training within 30 days of their original program application.




17
     The PTSP goal is approximately 200 participants a month for review.
                                                                                             Page 8
                    Oversight of the Public Transportation Subsidy Program
                                   Can Be Further Improved




When reviewing claims, TSB staff determines the participant’s daily allowable subsidy amount
by dividing the total amount of the participant’s subsidy actually received by the number of
workdays in the period. For example:
         $230                       $230 (maximum subsidy amount)
          21                          21 workdays in January 2011
        $10.95                   the computed daily commuting expense

TSB staff will then review payroll and travel records to determine how many days in the month
the employee was on leave or in travel status and would not have incurred any local commuting
expenses. Those days are totaled and multiplied by the computed daily commuting cost. That
amount is considered over-claimed. If an employee took three days of approved annual leave
and was in travel status for four days, TSB staff would determine that the employee over-claimed
the subsidy by $76.65.
         $230                      $230 shown on the pickup record
          21                         21 workdays in January 2011
        $10.95             $230 ÷ 21 the computed daily commuting expense
          7                      3 days approved leave + 4 days travel
        $76.65                 Amount over-claimed (7 days x $10.95)

In such a case, the employee would be expected to repay the $76.65 or only request $153.35 in
the following month.
This method of assuming PTSP participants’ daily commuting costs can be flawed. Employees
may incur costs that exceed the computed costs. For example, if a participant had actual
commuting expenses of $17.50 per day, the $230 maximum monthly subsidy amount would not
cover all of his or her expenses. In fact, the participant would have out-of-pocket expenses of
$137.50.
        $17.50                              Actual Daily Cost
          21                          21 workdays in January 2011
        $367.50                             $17.50 x 21 days
        $230.00                    Less the maximum monthly amount
        $137.50                          Out-of-pocket expenses




                                                                                          Page 9
                        Oversight of the Public Transportation Subsidy Program
                                       Can Be Further Improved




Further, if the participant took three days of approved annual leave and was in travel status for
four days, TSB staff would determine that the employee over-claimed the subsidy by $76.65, just
as in the first example. But in this case, the employee would actually have had out-of-pocket
commuting expenses of $15.00.
         $230.00                           Maximum allowable amount
           21                              21 total work days in month
         $10.95                           TSB’s computed daily amount
            7                             3 days leave plus 4 days travel
         $76.65                    TSB’s calculated over-claim (7 days x $10.95)
         $245.00                   Employee’s actual expense (14 days x $17.50)
         $15.00                   Employee’s out-of-pocket expenses ($245 - $230)


In addition to not obtaining the participant’s daily commuting expenses, TSB review staff
members do not obtain information about the days when the participant may have telecommuted
and do not appear to make the required adjustments for participants on alternative work
schedules. The addition of this information would allow TSB’s Program Analysts to more
accurately determine if participants made adjustments in their claims, account for days when the
subsidy is not needed, and verify that the participant’s actual commuting expenses exceeded the
maximum available subsidy.
Further, TSB staff members do not review for adjustments made in subsequent periods by the
participants being reviewed. This is a potentially serious oversight, because employees have two
options to correct any over-claimed subsidy amounts. As stated previously, participants are
expected to know their actual incurred commuting expenses, and if they did not use the full
amount in a month, they are expected to claim correspondingly less subsidy in the following
month. Alternatively, they may return the unused transit subsidy,18 or repay the amount by
sending a personal check or money order to the U.S. Department of the Treasury.19 Adding
appropriate data sources would enhance the accuracy of reviews completed by TSB staff
members and would allow them to more accurately determine if participants adjusted their
claims, or if their actual commuting expenses exceeded the maximum available subsidy.
Recommendation
Recommendation 6: We recommend that the Chief, AWSS, ensure that the PTSP review
process be modified to improve the accuracy of the review results by ensuring that participants’
subsidy amounts as approved by their managers and the estimated daily commuting costs are
considered. Additionally, participants who telecommute, have alternate work schedules, or have

18
   When returning the unused subsidy, participants must submit Form 11664-G, PTSP Participant Return of Fare
Media.
19
   IRM 1.32.15.5.4, Overestimated Benefit, shows guidelines on returning excess transit subsidy (April 25, 2011).
                                                                                                           Page 10
                        Oversight of the Public Transportation Subsidy Program
                                       Can Be Further Improved




subsequent period adjustments to the subsidies claimed need to be considered to accurately
determine if subsidy amounts have been over-claimed.
        Management’s Response: IRS management agrees with this recommendation. To
        improve the accuracy of the review results, the audit criteria have been modified to
        include daily costs. The electronic program enrollment form is being revised to include a
        line item for daily commuting costs, and participants’ telecommuting and alternate work
        schedules will be considered in the reviews to determine if subsidy amounts have been
        over-claimed. Forms revisions will require negotiations with the NTEU.

Results of Claims Reviews Are Not Shared With the Participants and
Their Managers
TSB’s current practices do not include sharing the results of their reviews with program
participants and their managers. Sharing these results would likely increase compliance with the
PTSP, ensure that participants understand the program requirements, and could highlight any
flaws in the review methodology.
We were informed that TSB has explored this option, and has begun to take the necessary steps
to establish the required policy and procedures for sharing their review results. TSB staff
members have drafted a revision to the IRM entitled, “Inappropriate Use of PTSP,” initially
dated June 2010, requiring referral of the PTSP results to program participants and their
managers. However, TSB has not finalized the document, nor has the document been forwarded
for approval by AWSS management. Once AWSS management has approved the change to the
IRM concerning the use of the PTSP review results, the IRM will be amended accordingly and
forwarded to the AWSS Embedded Labor Relations Office.20 The Embedded Labor Relations
Office will assess the impact of the changes on the employees and coordinate these changes with
the NTEU, if necessary.
Recommendations
Recommendation 7: We recommend that the Chief, AWSS, approve and publish the
necessary IRM policy and procedures to ensure that managers and program participants are
notified when a PTSP review identifies questions concerning the accuracy of the amount of
subsidy claimed.
        Management’s Response: IRS management agrees with this recommendation.
        PTSP staff members are amending IRM 1.32.15 to ensure that managers and program
        participants are notified when a PTSP review identifies questions concerning the
        accuracy of the amount of subsidy claimed. The IRM revision will provide a time frame


 	The mission of the AWSS Embedded Labor Relations Office is to provide strategic labor relations support to
20

AWSS management.
                                                                                                        Page 11
                    Oversight of the Public Transportation Subsidy Program
                                   Can Be Further Improved




       within which the participant must correct a discrepancy or face removal from the
       program for noncompliance. The IRM revision requires negotiations with the NTEU.
Recommendation 8: We recommend that the Chief, AWSS, coordinate with the appropriate
staff members in the Workforce Relations Division to complete the necessary processes to allow
TSB to share the results of PTSP reviews with the appropriate employees and their managers.
       Management’s Response: IRS management agrees with this recommendation.
       PTSP staff members are currently working in close coordination with the Workforce
       Relations Division to develop a method of communicating potential inaccuracies in
       subsidy claims with program participants and their managers. Implementation of the
       communication process requires negotiations with NTEU.




                                                                                       Page 12
                       Oversight of the Public Transportation Subsidy Program
                                      Can Be Further Improved




                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this follow-up review1 was to determine whether the IRS had
implemented corrective actions and established the necessary controls to ensure that the PTSP
was properly monitored and effectively administered.
To accomplish our objective, TIGTA:
I.      Interviewed DOT officials and the IRS Director, Employee Support Services in
        Washington, D.C., and the TSB program manager and analysts located in
        Oklahoma City, OK; Detroit, MI; and Houston, TX to understand the size of the program
        and the processes used to administer the PTSP, and to evaluate the adequacy of controls
        established to timely remove the names of the employees who separated from the IRS’s
        PTSP.
II.     Determined if the TSB ensured that employees participating in the PTSP were
        completing annual recertifications.
        A. Evaluated recertification processes and procedures.
        B. Determined if the TSB implemented an annual recertification process, including
           managerial approval, for all employees participating in the PTSP.
        C. Determined if follow-up procedures were implemented to ensure timely removal of
           noncertified employees from the program.
III.    Determined if the established processes require participants to certify their actual
        commuting costs.
IV.     Determined if the PTSP review reports were accurate.
V.      Determined if the quality review results were communicated with the PTSP participants
        and their managers.




1
 TIGTA, Ref. No. 2006-10-062, The Administration of the Public Transportation Subsidy Program Can Be
Improved, (March 23, 2006).
                                                                                                       Page 13
                    Oversight of the Public Transportation Subsidy Program
                                   Can Be Further Improved




                                                                   Appendix II



                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections and Evaluations
Stanley C. Rinehart, Supervisory Evaluator
Mark Anderson, Program Analyst




                                                                         Page 14
                   Oversight of the Public Transportation Subsidy Program
                                  Can Be Further Improved




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Employee Support Services OS:A:ESS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                        Page 15
      Oversight of the Public Transportation Subsidy Program
                     Can Be Further Improved




                                                    Appendix IV


Management’s Response to the Draft Report




                                                           Page 16
Oversight of the Public Transportation Subsidy Program
               Can Be Further Improved




                                                     Page 17
Oversight of the Public Transportation Subsidy Program
               Can Be Further Improved




                                                     Page 18
Oversight of the Public Transportation Subsidy Program
               Can Be Further Improved




                                                     Page 19
Oversight of the Public Transportation Subsidy Program
               Can Be Further Improved




                                                     Page 20
